Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK.

88581

SS:

COUNTY OF NEW YORK

AFFIDAVIT DF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 14th day of October 2021 deponent served 3 copies of the within

BRIEF IN DPPDSITIDN
upon the attorneys at the addresses below. and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Roman Martinez
Latham 6 Watkins LLP
555 Eleventh Street NW. Suite !ODD
Washington, District of Columbia 20004
(202) 837-2200

Attorneys for Petitioners

I, Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and

correct. executed on October 14. 2021. pursuant to Supreme Court Rule 2S.5(c). All parties required to be served, have been
served.
Howard Daniels

Sworn to me this
October 14. 2021
Jasmine Williams
Notary Public, State ofNew York
No. 01 WI6397949
Qual · ed in Queens County
Commissi Expires September 16, 2023

c...

Case Name: ZF Automotive US. Petitioners v. Luxshare. Ltd.
Docket/Case No. 21-4DI

